Office of
INSPECTOR GENERAL



~--------
 Audit Report




 Audit of Associated Management Services, Inc.
 Wage Payment and Fringe Benefits



 Report No. IG-03-98




                                       June 1998
INSPECfOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436



June 24, 1998

TO: THE COMMISSION

I hereby submit Audit of Wage Payments By Associated Management Services,
Inc., Report No. 10-03-98. This audit was conducted to determine if Associated
Management Services, Inc., (AMSI) complied with Federal law governing wage
and fringe benefits payments to contract employees.

The McNamara-O' HaraService Contract Act ofl965, as amended (Act), requires
contractors who receive a Federal award to pay employees under that contract in
accordance with wage determinations that are issued by the Secretary of the
Department of Labor. Additionally, the Act requires that contract employees
receive a minimum of ten paid holidays per year.

 The Commission entered into a contract with the Small Business Administration
 (SBA) on December I, 1993, primarily for mail room and laborer services. SBA
 subcontracted with AMSI to perform the contract for the base year and extended
 the contract for four option years ending in FY 1998.

 This audit was conducted by Dembo, Jones, Healy, Pennington & Ahalt, P.C.
 They examined AMSI wage and fringe benefit payments for FYs 1994 through
 FY1997. They found that AMSI underpaid 18 employees by more than $100
 based on the combined wage and fringe benefits underpayment and maximum
 holiday underpayment. AMSI underpaid wages and fringe benefits totaling
 $7,051.46, and approximately $2,187.20 in holiday pay. Additionally, the
 auditors identified $940.89 in questioned costs. These costs were questioned
 because the amounts invoiced by AMSI exceeded the time charged by eight
 workers on their original time sheets.

 We recommend that the Director of Administration notify AMSI of the need to
 pay wages and fringe benefits due, includingholidaypay, to the contract workers.
 He should also recover the questioned costs.
An exit conferencewas held with the Director ofAdministration and procurement
staff on April 15, 1998.   The Director of Administration concurred with the
findings.

On May 20, 1998, the Director of Administration requested that AMSI in
accordance with the findings ofthe audit, pay employees for back wage payments
and fringe benefits. Additionally, AMSI was requested to forward $940.89 in
questioned costs to the Commission. On May 27, 1998, AMSI submitted a check
to the Commission for $940.89. On June 5, 1998 AMSI provided proof of
payment of $9,238.66 in wages and fringe benefits underpayments to 18
employees.

The Director of Administration submitted a response dated June 18, 1998 which
is attached as an appendix to this report. All recommended actions were
completed.



                                     ~///~-J~,
                                   jane E.  Al=:r'
                                    Inspector General
 United States International Trade Commission

                June 22, 1998



     AUDIT OF WAGE PAYMENTS BY

ASSOCIATED MANAGEMENT SERVICES, INC.
          AUDIT OF WAGE PAYMENTS BY
     ASSOCIATED MANAGEMENT SERVICES, INC.




                  CONTENTS

                                            Page

INTRODUCTION AND SCOPE                       I

FINDINGS                                     4

RECOMMENDATIONS                             10
                                AUDIT OF WAGE PAYMENTS BY
                           ASSOCIATED MANAGEMENT SERVICES, INC.




INTRODUCTION AND SCOPE
An audit was conducted to determine if Associated Management Services, Inc. (AMSI) wage
payments and fringe benefits paid to employees were in compliance with the McNamara-O'Hara
Service Contract Act of 1965, as amended.

The McNamara-O'Hara Service Contract Act of 1965, as amended, requires contractors who
receive a Federal award to pay employees under that contract in accordance with Wage
Determinations that are issued by the Secretary of the Department of Labor (DOL). Additionally,
the Act requires that contract employees receive a minimum of ten paid holidays per year,
including Christmas and New Year's days.

The United States International Trade Commission (ITC) let a Fixed Price, Indefinite Delivery,
Indefinite Quantity Contract (Contract) effective December I, 1993, to the Small Business
Administration (SBA) under the 8(a) program.' SBA subcontracted with AMSI as an "8(a)
contractor" to fulfill and perform all the requirements of the Contract on behalf of SBA. The
Contract (Contract No. ITC-CN-94-0001) consisted of the base year and four option years ending
in fiscal year (FY) 1998. All options were exercised. ITC paid $659,600 to AMSI through
September 30,1997. $240,200 is currently budgeted for FY 1998. Pursuant to thContract, AMSI
has provided the services of a Supervisor/Mail Clerk, Assistant Supervisor/Mail Clerk, Mail Clerk,
Duplicating Machine Operator, two Laborers, and a Truck and Driver. Optional services in the
Contract include an additional Mail Clerk, DriverlMessenger, Chauffeur, Supply ClerkJWarehouse
Technician, and Shuttle Vehicle and Driver. The majority of the workers supplied by AMSI were
employees ofAMSI and, in some cases, vendors were used.

The Contract is in the final option year and AMSI graduated from the SBA 8(a) program in
November 1997. For the next fiscal year, ITC will be letting this contract through SBA's 8(a)
Program. Since AMSI graduated from the 8(a) Program, AMSI will be ineligible to compete forthe
Contract for the next fiscal year.

The audit was conducted during February and March of 1998. Wage and fringe benefit payments
were examined from the period of Contract inception through FY 1997. The Contract and its
modifications, along with applicable Federal regulations, were all reviewed to determine the
minimum wage and fringe benefit levels that AMSI was required to pay its workers. Clarification
of issues pertaining to the documents was sought and obtained fromenforcement officials at DOL's
Employment Standards Administration, Wage and Hour Division. AMSI wage and fringe benefit



I "Section 8(a) of the Small Business Act [15 V.S.c. 637 (a)] established a program that authorizes the SBA to enter

into all types of contracts with other agencies and let subcontracts for performing those contracts to firms eligible for
participation. The SBA's subcontractors are referred to as '8(a) contractors." FAR 19.8
                          AUDIT OF WAGE PAYMENTS BY
                     ASSOCIATED MANAGEMENT SERVICES, INC.

                               INTRODUCTION AND SCOPE


records were examined and compared to the determined minimum requirements. The exceptions
resulting from the comparison were calculated and summed by fiscal year.

The following documents were reviewed during the audit:

       A.     The Code of Federal Regulations (CFR) Title 29 (Labor) Part 4, Labor Standards for
              Federal Service Contracts and

       B.     The Contract and its Modifications.

Title 29 CFR Part 4 contains governing regulation of the McNamara-O'Hara Service Contract Act
of 1965, as amended. Criteria in the regulations were examined to determine wage and fringe
benefit eligibility requirements and methods of dispensation.

Copies of all DOL wage determination letters requested directly by lTC for the Contract were
obtained for use as minimum wage standards.

lTC's Contracting Officer (CO) and the Contracting Officer's Technical Representative (COTR)
were interviewed to obtain a description of the Contract operations and lTC responsibilities for
oversight of AMSIlabor practices.

AMSI policy documents regarding payroll and fringe benefits of employees corresponding to ITC
FYs 1994 to 1997 were reviewed to determine specific wage and fringe benefitpolicies in existence
during the period. AMSI officials were interviewed to determine AMSI's employee payment
arrangements. Enforcement officials at DOL's Employment Standards Administration, Wage and
Hour Division were contacted to corroborate the understanding of Federal regulations as applied to
AMSI personnel practices.

AMSI invoices to lTC from inception of the Contract through the end of FY 1997 were reviewed.
Invoice total dollar amounts were validated to lTC's Office of Finance and Budgepayment records.
From the AMSI invoices, each person whose services AMSI charged to the Contract during ITC
FYs 1994 to 1997 was identified by name and title. A five-percent sample of invoices was
judgmentally selected for verification of mathematical accuracy.

Original payroll registers and original timesheets were obtained from AMSI for each pay period
invoiced under the Contract through September 30, 1997.

For those AMSI workers who charged time to the Contract, the following steps were performed:

       A.     each person's hours, and their corresponding position title, were compared from the
              AMSI invoice to original time sheets for the same period to determine agreement
              and

                                                2
                          AUDIT OF WAGE PAYMENTS BY
                     ASSOCIATED MANAGEMENT SERVICES, INC.

                               INTRODUCTION AND SCOPE


       B.     each pay-period payroll register was examined to determine if that person was
              directly paid by AMSI.

For those persons charged to the Contract and found on the AMSI payroll register for a specific
payroll period:

       A.     the total hours documented on those employees' time sheets were compared to the
              payroll register to determine agreement;

       B.     the employees' hours and wage rates paid per the register were documented for each
              specific job title performed;

       C.     where the pay period contained an AMSI holiday, the payroll register was examined
              to determine if, and how much, the employee was paid for that holiday; and

       D.     the AMSI payment of fringe benefits was determined.

For each employee, both the wage rate and the total of the wage rate and the fringe benefit rate
provided by AMSI per hour for each pay period were then compared .to the DOL wage
determinations.

For those persons charged to the Contract and not found on AMSI payroll register for a specific
payroll period, each person's hours and corresponding title were compared from the AMSVITC
invoice to AMSI vendor invoices.

Documentation was obtained from ITC indicating when the Government shutdown occurred. For
the dates indicated, AMSI invoices were examined to determine if any of the service periods of the
invoices included any of the shutdown dates. For any invoices so identified, AMSI time sheets
were examined for persons charged in the invoices to determine the exact dates being charged.
Documentation was then requested fromITC and AMSI to determine ifITC directly authorized any
AMSI services to be provided during the Government shutdown.

Contract provisions were also examined to determine how any ITC workforce reductions would
affect the invoicing of services rendered.

The audit was conducted in accordance with the 1994 Revision of the Government Auditing
Standards promulgated by the Comptroller General of the United States, and all other relevant
Federal Government accounting and audit regulations.




                                                3
                           AUDIT OF WAGE PAYMENTS BY
                      ASSOCIATED MANAGEMENT SERVICES, INC.

                                           FINDINGS



FINDINGS
CONTRACT

With few exceptions, each AMSI invoice represented services performed during the AMSI payroll
period. Therefore, an AMSI employee's hours per each AMSI invoice agreed to an AMSI
timesheet for the same period.

According to the provisions in the Contract, AMSI only is paid by ITC for services rendered; if
employees do not work on the ITC Contract, ITC is not liable for payment toAMSI. This provision
means that ITC does not pay for holidays, Government shutdown days, vacation days, sick days,
and any other time not actually spent working on behalf of II'C.

ITC memorandums were provided which indicated that ITC employees were given furlough due to
the Government shutdown on the following days:

       •   November 14, 1995 through and including November 17, 1995,
       •   December 18, 1995 through and including January 5, 1996, and
       •   Four days during the week of January 8,1996 (due to inclement weather).

No other dates of Government shutdown were indicated as having occurred.

Labor Regulations (29CFR Part 4, Subpart A, Standard 4.4) state that for any contract exceeding
$2,500, ITC shall file with the Wage and Hour Division of DOL's Employment Standards
Administration its notice of intention to make a service contract. These notices (Standard Form 98,
Notice of Intention to Make a Service Contract, and Standard Form 98-A, a listing of employee
classes and number of employees expected in the Contract) should be filed not less than 60 days
(nor more than 120 days) prior to exercise of options or contract extensions.

However, when the Contract was examined, the 1996 and the 1997 FY Wage Determinations in the
Contract were not obtained directly from DOLby ITC; these Determinations were directly provided
by AMSI to ITe. When these findings were presented and confirmed by the ITC CO, the CO
completed the Standard Forms 98 and 98-A and submitted them to DOL. DOL has since provided
ITC the Official Wage Determinations for FYs 1996 and 1997. These Determinations were the
same as the Contract "Information Copies" that were provided by AMSI.

For the ITC reduction in force that occurred in October of 1995, a modification was performed to
the Contract to reduce the number of employees that AMSI provided ITe.




                                                4
                           AUDIT OF WAGE PAYMENTS BY
                      ASSOCIATED MANAGEMENT SERVICES, INC.

                                           FINDINGS


ITC OVERSIGHT RESPONSIBILITIES

According to the CO, ITC has the following responsibilities for oversight of the Contract:

       A.      ensure that the Contractor provides a Statement to ITC stating that the Contractor's
               employees are being paid in accordance with the DOL Wage and Determination;

       B.      compare the Contractor's employee wage-rates to the Wage Determination .and
               ensure the wage rates are at least at the Determination levels; and

       C.      ensure that instructions to the Contractor for work to be performed are detailed in a
               Statement of Work.

WAGES AND FRINGE BENEFIT POLICIES

Descriptions of the AMSI benefit policies that were in effect during the examined Contract period
were obtained from AMSI's policy manual and AMSI officials. Policies, which are perceived as
exceptions to DOL standards, are described under the paragraph heading "WAGES AND FRINGE
BENEFITS UNDERPAID."

All employees of AMSI who worked on the Contract were paid bi-weekly via the employee's
choice of direct deposit or check. The employees on the Contract were classified as non-exempt,
hourly-paid workers and were paid based on the specific titled job performed. When employees
performed more than one titled job during a pay period, the same employee earned thevage rate set
by AMSI for that titled job in that given pay period. The following types of remuneration were
received:

       •    Straight Time
       •    Overtime
       •    Jury Duty
       •    Sick
       •    Vacation
       •    Holiday
       •    Bereavement

Of the listed remunerations, AMSI could only invoice for time productively spent working on
behalf of lTC, namely Straight Time and Overtime. Vacation was earned in accordance with DOL
Wage Determinations. Vacation for new employees and employees with less than five years
experience at ITC received two weeks vacation prorated for the number of hours on payroll at
AMSI for the previous year. This vacation was received commencing on the date of either their one
year anniversary date working on behalf of ITC or as an employee of AMSI. Those who had


                                                 5
                          AUDIT OF WAGE PAYMENTS BY
                     ASSOCIATED MANAGEMENT SERVICES, INC.

                                           FINDINGS


worked more than five years either on behalf of ITC or as an employee of AMSI received three
weeks vacation. Bereavement leave and Jury Duty were paid, when authorized, for up to three
days.

During the period of the Contract, the benefit plans changed at AMSI. From the inception of the
Contract to March 30, 1995, the plan in place provided the following:

       A.     Paid health plan benefits for individual coverage, which calculated to $ .75 per hour
              in FY 1994 and $ .72 per hour for FY 1995 through March 3 1st;

       B.     Sick leave of 40 hours per year;

       C.     Holiday pay for all ten Federal holidays;

       D.     Up to three days each for Jury Duty, Bereavement, or Personal Leave days as
              authorized; and

       E.     Vacation Pay depending on length of service and eligible work time accumulated.

From March 31, 1995, through the end of FY 1997, the benefit plan in place (a Cafeteria Plan)
provided the following coverage:

       A.     A fringe benefit amount predetermined at the beginning of the Contract year;

       B.     Holiday pay for all ten Federal holidays;

       C.     Up to three days each for Jury Duty and Bereavement days (Personal Leave
              discontinued) as needed; and

       D.     Vacation Pay depending on length of service and eligible work time accumulated.

The fringe benefit amount was allocated by the employee via the employee's benefit selections or,
if so chosen by the employee, taken as an addition to their wage. The employee made these
elections at the inception of the plan (or on their hire dates) by completing an Employee H & W
Benefit Statement. These Statements disclosed the insurance coverage costs, fringe benefit dollars
provided by AMS1, and amount of sick leave elected. The resulting computation of fringe benefit
dollars provided, less cost of employee elections, were denoted and deducted from the employee's
pay each pay period.




                                                 6
